                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: AIOll0087                                                                     Page 1 of 1



                  NSF OIG received allegations related to NSF's decision to decline renewal of funding for
          a Science and Technology Center. 1 Specifically, flaws in NSF's management and review of the
          center were alleged as was incomplete production of documents in response to a FOIA request
          filed by the center.

               Our review of the alleged flaws in NSF's management and review indicated these matters
         were management-related decisions rather than under OIG jurisdiction.

                 Our review of the allegation related to FOIA indicated that NSF followed its standard
         procedure for fulfilling the FOIA request. Furthermore, the FOIA statute provides for
         administrative appeals and civil litigation to resolve complaints about agency responses to
         requests.

                   This case is closed with no further action taken.




NSF OIG Form 2 (11102)
